HHS/OIG, Audit - "Review of the Kansas City Health Department's Administration
of the Kansas City Eligible Metropolitan Area Ryan White Comprehensive AIDS Resources
Emergency Act Grant Award From the Health Resources and Services Administration
During the Three Fiscal Years Ended February 28, 2001," (A-07-02-00140)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Kansas City Health Department's Administration of the
Kansas City Eligible Metropolitan Area Ryan White Comprehensive AIDS Resources
Emergency Act Grant Award From the Health Resources and Services Administration
During the Three Fiscal Years Ended February 28, 2001," (A-07-02-00140)
January 9, 2003
Complete Text of Report is available in PDF format
(574 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Ryan White Title I funds
awarded to the Kansas City Health Department (KCHD) for fiscal years (FY) 1998,
1999, and 2000 were administered in accordance with federal guidelines.
During calendar year 2001, the KCHD encountered many significant issues, including
a restriction of its ability to draw funds by the HRSA and a task force organized
by the Mayor of Kansas City to rectify Ryan White Title I administration concerns.
The KCHD did not perform required programmatic reviews on certain service categories.
As a result, the Kansas City EMA may not have been able to assess the
quality of care administered by the contractors to the Ryan White beneficiaries,
including such critical categories as primary and dental care.  Also, the
KCHD provided inaccurate information on annual applications to HSRA, which may
have resulted in an unfair advantage for the KCHD when competing with other
EMAs for funding.  In addition, KCHD did not always follow certain technical
requirements in the operation of the program.  Specifically, we found one
instance where the KCHD had: (1) allocated and prioritized funding, which is
a function required of the Planning Council and (2) charged administrative costs
inappropriately to program cost categories.